»s/a
t^O

No. ZO'lioO*]
In the

Supreme Court of the United States

David R. Seaton
Petitioner
vs.
Blake Johnson, et al
Respondents

On petition for a writ of certiorari
to the District of Columbia Court of Appeals

FILED
MAY 1 2 2021
SUPREM^FcSuRTLnRK

PETITION FOR WRIT OF CERTIORARI

David R. Seaton
Petitioner - Pro Se
200 West 80th Street
Apartment 5N
New York, NY 10024
(646) 262-8231

RECEIVED
MAY 1 8 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S

QUESTIONS PRESENTED FOR REVIEW
1. Should police brutality be constitutionally
protected?
2. Do regulations ordering police to de-escalate
confrontations instill an affirmative duty for police to
de-escalate confrontations?
3. Does electronic evidence submitted by police
override contradicting eye-witness accounts so
dispositively so as to guarantee summary judgement
as a matter of law for the government?
4. Should We the People adjudicate the use of state
violence or should that be left to experts?
5. Should courts should continue to place their
thumb on the scale in favor of the police over pro se
litigants?
6. Should courts be permitted to ignore recent
rulings of this Court?

(0

LIST OF PARTIES
David R. Seaton, Plaintiff/Appellant/Petitioner
Blake Johnson, Defendant/Appellee/Respondent
Corey Vullo, Defendant/Appellee/Respondent
John D’Angelo, Defendant/Appellee/Respondent
City of Washington DC, Defendant/Appellee
/Respondent
Mayor Muriel Bowser, Defendant/Appellee
/Respondent
Metropolitan Police Department, Defendant/Appellee
/Respondent
LIST OF RELATED PROCEEDINGS
• Seaton v. Johnson et al, No. CAB6737-17, Superior
Court of the District of Columbia. Order and
Judgement entered D.C. January 9, 2019.
• Seaton v. Johnson et al, No. 19-CV-85, District of
Columbia Court of Appeals. Memorandum Opinion
and Judgement entered March 3, 2021.
(ii)

TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW.......(i)
LIST OF PARTIES

(ii)

LIST OF RELATED PROCEEDINGS

(ii)

TABLE OF CONTENTS

(iii)

TABLE OF AUTHORITIES

(vi)

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW.

1

JURISDICTION.

1

CONSTITUTIONAL AND REGULATORY
PROVISIONS AT ISSUE...........................

2

STATEMENT

3

I. The Night in Question

7

II. Ensuing Litigation

14

REASONS FOR GRANTING THE WRIT

20

(iii)

I. Police departments have been infiltrated by
fascists, and they need to be stripped of power as
21
expeditiously as possible
II. De-escalation regulations are the only legal tool
in the armory of the average citizen standing up
against the police oppression, and they must he given
29
more teeth
III. The combination of the history of fraud
perpetrated by police departments combined with
deep fake technology necessitates establishing rules
of procedure and evidence that do not privilege police
footage over citizen
36
testimony
IV. Police violence is not a matter of special
expertise; rather it is We the People who are
empowered to adjudicate it.............................

43

V. Courts are cognitively biased against pro se
litigants, and this violation of due process and equal
protection under law has created an unjust windfall
for municipalities who actively shield violent
cops
48
VI. The Court should exercise its supervisory powers
in order to enforce Uzuegbunam........ 55
CONCLUSION

57

APPENDIX.

58

(iv)

Seaton v. Johnson etal, No. CAB6737 17, Superior
Court of the District of Columbia.
58
Order
Seaton v. Johnson etal' No. CAB6737-17, Superior
Court of the District of Columbia.
83
Judgement
Seaton v. Johnson etal\ No. 19-CV-85, District of
Columbia Court of Appeals Memorandum Opinion
85
and Judgement

(v)

TABLE OF AUTHORITIES
Constitutional Provisions
U.S. Const. Preamble

46

U.S. Const, amend IV.

2

U.S. Const., amend. V,

2, 53

U.S. Const., amend. XIV, § 1

2, 53

Statues & Pending Legislation
28 U.S.C. § 1257....

1, 19

D.C. Code § 11-921

15

D.C. Code § 11-721

19

DEEP FAKES Accountability Act, H.R. 2395, 117th
Congress (2021)
38
District of Columbia Court Reform and Criminal
Procures Act of 1970, 84 Stat. 473 (1970)..............

14

Regulations
Metropolitan Police Department of the District of
Columbia General Order 901.07, Part IV.........2*3, 12
Cases
Daubert v. Merrell Dow Pharm., 509 U.S. 579
(1993)........................................................................

(vi)

47

Gideon v. Wainwright, 372 U.S. 225 (1963)
Graham v. Connor, 490 U.S. 396 (1989).....

52
25-29

Pinheiro v. State, 244 Md. App. 703 (2020)

38-41

Planned Parenthood v. Casey, 505 U.S. 833 (1992)....
.......................................................................................26-28
Roe v. Wade, 410 U.S. 113 (1973)......................... 27-28
Seaton v. Johnson et al, No. CAB6737-17 (D.C.
January 9, 2019)
ii, 1, 16
Seaton v. Johnson et al, No. 19-CV-85 (App. D.C.
March 3, 2021)
iii, 1, 20
State v. Pinheiro, Case No. 118023003 (Md. Cir. Ct,
38-41
February 12, 2021)
Uzueghunam et al v. Preczewski et al, No. 19-968
20, 55-56
(U.S. March 8, 2021)....................................
Yick Wo v. Hopkins, 118 U.S. 356 (1886)

53-

54
Other Authorities
Char Adams, Experts stress that more training won't
eradicate police violence, NBC News, April 15,
2021...
24
Scottie Andrew, Josiah Ryan, and Caroline Kelly,
CNN, April 14, 2021..................................................... 30

(vii)

Radley Balko, The Watch How do we fix the police
‘testifying’problem?, The Washington Post, April 16,
2014
6
Susan Bandes, Whyjudges so rarefy second-guess
police testimony; Salon, December 16, 2015
50*
51
Laura Barron, Biden White House puts its police
oversight commission on ice, Politico, April 11,
2021...
31-32
Zack Beauchamp, What Police Really Believe, Vox,
July 7, 2020
22-23
Jimmerson Birr, Combating the Ever Increasing
Costs ofExperts in Litigation, June 18, 2012......

47

Brief for NAACP Legal Def. and Educ. Fund, Inc. as
Amicus Curiae Supporting Appellant Terry v. Ohio,
392 U.S. 1 (1968)
45
Brief for Respondent, People v. Peters, 219 N.E.2d
595 (N.Y. 1966)................................................................ 45
Scott Calvert, Baltimore Police ChiefDefends
Officers in Body-Cam Videos, The Wallstreet
Journal, August 2,
2017...........................................................................

40

Chief Justice John T. Broderick and Chief Justice
Ronald M. George, A Nation ofDo-It-Yourself
Lawyers, The New York Times, January 1, 2010..
49, 51

(viii)

Jordain Carney, GOP senators introduce resolution
opposing calls to defund the police, June 9, 2020. ...31
Bill Chappell, Baltimore Police Caught Planting
Drugs In BodyCam Footage Public Defender; NPR,
July 30, 2017
38-39
Steve Chaggaris, Defundingpolice- An idea most
Democrats don't want to talk about, Aljazeera, April
15, 2021
31
Erwin Chemerinsky, The Deck Is Stacked in Favor of
the Police, The New York Times, May 18, 2016
50
Arlin Cunic, The Psychology Behind Police Brutality,
Very Well Mind, January 17, 2020
24
Stephanie Czekalinski, Akron police- 37-year-old
shot and killed on street in broad daylight, Cleveland
19 News, February 24,
4
2021
Declaration of Independence (US - 1976)

45-46

Maya Dukmasova, Abolish the police? Organizers
say it's less crazy than it sounds, Chicago Reader,
August 25,
30
2016
Zusha Elinson, When Mental-Health Experts, Not
Police, Are the First Responders, The Wallstreet
Journal November 24, 2018.......................................... 44

(ix)

Ryan J. Foley, Video evidence increasingly disproves
police narratives, Associated Press, June 9,
2020........
37
Michael German, Hidden in Plain Sight- Racism,
White Supremacy, and Far-Right Militancy in Law
Enforcement, Brennan Center for Justice, August 27,
2020
3-4
Police Lieutenant Jim Glennon, De-escalationCompletely Misunderstood, Employed & Trained,
Calibre Press, August 3, 2020
33-34
Joseph Goldstein, Is Police Shooting a Crime? It
Depends on the Officer's Point of View, The New
York Times, July 28,
2016
10, 36
Richard Herbert, Code Overload- Doing a Number on
Memory, Association for Psychological Science,
September 26, 2001
9-10
Kashmir Hill, Imagine Being on Trial With
Exonerating Evidence Trapped in Your Phone, The
New York Times, November 22, 2019
42-43
Seanllling, The “abolish the police" movement,
explained by 7 scholars and activists, Vox, June 12,
2020
29-30
Policeman Dean Isabella, Is Policing a Profession,
Law Enforcement Today, August 24, 2017............. 44

(x)

Tom Jackman and Dan Morse, Police de-escalation
training gaining renewed clout as law enforcement
seeks to reduce killings, The Washington Post,
October 27, 2020.............................................................. 32
Mariame Kaba, Yes We Mean Literally Abolish the
Police, The New York Times, June 12, 2020
4*5
Benn Kesslen, Calls to reform, defund, dismantle
and abolish the police, explained, NBC News, June 8,
29
2020
Katheryn M. Kroeper, Victor D. Quintanilla, Michael
Frisby, Nedim Yel, Amy G. Applegate, Steven J.
Sherman, Mary C. Murphy, Underestimating the
Unrepresented•' Cognitive Biases Disadvantage Pro
Se Litigants in Family Law Cases, American
Psychological Association^ Psychology, Public Policy,
48-49
and Law, Vol. 26 No. 2 (2000)
Chief David Kurz and Director Bryan V. Gibb, When
Less (Force) Is More- De-escalation Strategies to
Achieve Officer Objectives and Simultaneously
Reduce the Use ofForce, Police Chief Magazine,
April
5
2017
Police Lieutenant Brian Landers, Are De-Escalation
Policies Dangerous?, Police Magazine, October 14,
34
2017
Stephen Landsmand, The Growing Challenge ofPro
Se Litigation, 13 Lewis & Clark L. Rev. ii (2009).......
48

(xi)

Eric Levenson, Lauren del Valle and Darran Simon,
Public Defender- Baltimore Police Ca ught Planting
Evidence, Again,, CNN, August 4, 2017
36
Sam Levin, White supremacists and militias have
infiltrated police across US, The Guardian, August
27, 2020............................................................................. 21
Louise Matsakis, Body Cameras Haven't Stopped
Police Brutality, Here's Why, Wired, June 17,
2020....
37*38
Jill McCorkle, Police Officers Accused ofBrutal
Violence Often Have a History of Complaints by
Citizens, Next City, June 2, 2020........................... 2324
Stacey McKenna, Police Violence Calls for Measures
beyond De-escalation Training, Scientific American,
June 17, 2020
32-33
Sayantani Nath, Who is Dave Grossman?
Enforcement trainer tells cops sex after killing a
human is best sex,' Media, Entertainment, Arts,
World Wide, April 22, 2021.......................................

22

Spencer G. Park, Providing Equal Access to Equal
Justice-'A Statistical Study ofNon -Prisoner Pro Se
Litigation in the United States District Court for the
Northern District of California in San Francisco, 48
Hastings L.J. 821 (1997)
49-50

(xii)

Police Employee Data, Federal Burea of
Investigation
(2019)..............................................................

27

Rashawn Ray, Bad apples come from rotten trees in
policing, The Brookings Institution, May 30, 2020....
23
Kevin Rector, Baltimore Police officer found guilty of
fabricating evidence in case where his own body
camera captured the act, Baltimore Sun, November
9, 2018
40
Steve Reilly and Mark Nichols, Hundreds ofpolice
officers have been labeled liars. Some still help send
people to prison., USA Today, October 14,
2019...........
....................................................................................... 36-37
Thomas A. Reppetto, Pennsylvania and New JerseyThe American Constabulary
3
(2010)
Alanna Durkin Richer and Linsay Whitehurst, 1
verdict, then 6police killings across America in 24
hours, Associated Press, April 24, 2021..................... 5
Katie Rogers, Trump Continues Criticism of
Movement to Defund the Police, New York Times,
July 13, 2020................................................................... 30
Kevin Roose, Here Come the Fake Videos Too, The
6, 38
New York Times, March 3, 2018

(xiii)

Stuart Schader, Yes, American police act like
occupying armies. They literally studied their tactics,
The Guardian, June 8, 2020
27
Oscar Schwartz, You thought fake news was had?
Deep fakes are where the truth goes to die, The
Guardian, November 12, 2018.................................... 38
Erin Schumaker, Police reformers push for deescalation training, but the jury is out on its
effectiveness, ABC News, July 5, 2020.............. 3233
Josh Segal, All ofthe Mysticism ofPolice Expertise•
LegalizingStop-and-Friskin New York, 1961-1968,
47 Harv. C.R.-C.L. L. Rev. 573 (Summer 2012)........ .
4, 44-45
Police Chief Joel F. Shults, Putting the Brakes on
De-escalation Expectations, National Police
Association, August 26,
2020
33
David Alan Skansky, The Persistent Pull ofPolice
Professionalism, New Perspectives in Policing,
Harvard Kennedy School (March 2011)
43-44
Christopher Slobogin, Testifying- Police Perjury and
What To Do About It, 67 U. Colo. L. Rev. 1037 (Fall
1996)
37
Alice Speri, Unredacted FBI Document Sheds New
Light on White Supremacist Infiltration ofLaw
Enforcement, The Intercept, September 29,
2020........
(xiv)

21
Lauren Sudeall and Darcy Meals, Every year,
millions try to navigate US courts without a lawyer,
50
The Conversation, September 21, 2017
A.C. Thompson, Inside the Secret Border Patrol
Facebook Group Where Agents Joke About Migrant
Deaths and Post Sexist Memes, Pro Publica, July 1,
21*22
2019
Laura Thompson, Police Reforms Don't Work When
Cops Ignore Them, Mother Jones, April 21, 2021.....
5*6, 34
Detective James L. Trainum, ‘I Did If - Confession
Contamination and Evaluation, Police Chief
41*42
Magazine, June 2014
Linsay Van Ness, Body Cameras May Not Be the
Easy Answer Everyone Was Looking For, Pew
Research, January 14, 2020....................................... 42
Robin Washington, Revolutionary Moments in Law
Enforcement, The Marshall Project, July 3,
2018....46
Simone Weichselbaum and Jamiles Lartey, What
Are Cops Really Thinking When Routine Arrests
Turn Violent?, The Marshall Project, June 26,
2020
23
Debra Caassens Weis, Posner-’ Most Judges regard
pro se lititgants as kind of trashnot worth the time, ’

(xv)

American Bar Association Journal (September 11,
2017)................................................................................. 48

(xvi)

PETITION FOR WRIT OF CERTIORARI
I respectfully petition this Court for a writ of
certiorari to review the judgement of the District of
Columbia Court of Appeals
OPINIONS BELOW
The Superior Court of the District of Columbia
ruled in favor of the above*named Defendants at
summary judgement. Seaton v. Johnson et al, No.
CAB6737*17 (D.C. January 9, 2019). I appealed to
the District of Columbia Court of Appeals; which
affirmed the Superior Court. Seaton v. Johnson et
aly No. 19-CV-85 (App. D.C. March 3, 2021).
JURISDICTION
I invoke this Court’s jurisdiction having timely
filed a petition for cert, within 90 days of the
judgement of the Court of Appeals. 28 U.S.C. § 1257.

1

CONSTITUTIONAL AND REGULATORY
PROVISIONS AT ISSUE

“The right of the people to be secure in their
persons . . . against unreasonable searches and
seizures, shall not be violated!.]” U.S. Const, amend
IV.
“No person shall be .. . deprived of life, liberty,
or property, without due process of law[.]” U.S.
Const., amend. V.
“No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
. . . deprive any person of life, liberty, or property,
without due process of law; nor deny ... equal
protection of the laws.” U.S. Const., amend. XIV, § 1.
“All members who encounter a situation where
the possibility of violence . . . shall, if possible, first
attempt to defuse the situation through advice,
2

warning, verbal persuasion, tactical communication,
or other de-escalation techniques. Members shall
attempt to defuse use of force situations with deescalation techniques whenever feasible.”
Metropolitan Police Department of the District of
Columbia General Order 901.07, Part IV.A.
STATEMENT
Historically, American police departments
have been engines of oppression. Police departments
in the northern half of the country were originally
created to prevent labor from organizing against
capital; Thomas A. Reppetto, Pennsylvania and New
Jersey' The American Constabulary (2010); and
police departments in the southern half of the
country originated from slave patrols. Michael
German, Hidden in Plain Sight• Racism, White
Supremacy, and FarRight Militancy in Law
Enforcement, Brennan Center for Justice, August 27,
3

2020. Policy makers, and disturbingly even courts,
have attempted to sugar over this sordid history by
fabricating from whole cloth the myth that the police
have some level of professionalism or expertise that
We the People do not. Josh Segal, All ofthe
Mysticism ofPolice Expertise'- Legalizing Stop-andFrisk in New York, 1961-1968, 47 Harv. C.R.'C.L. L.
Rev. 573 (Summer 2012).
Recently, police officers have become so bold
that they routinely murder citizens on the street, in
broad daylight. Stephanie Czekalinski, Akron police37-year-old shot and killed on street in broad
daylight; Cleveland 19 News, February 24, 2021.
The obvious solution is to dissolve these institutions,
but policy makers have, for over a century refused,
instead opting for reform as a kind of half measure.
Mariame Kaba, Yes We Mean Literally Abolish the
Police, The New York Times, June 12, 2020.
4

The most recent half measures suggested by
policy makers is to provide police officers with deescalation training/regulations; Chief David Kurz
and Director Bryan V. Gibb, When Less (Force) Is
More- De-escalation Strategies to Achieve Officer
Objectives and Simultaneously Reduce the Use of
Force, Police Chief Magazine, April 20175 and body
cameras under the theory that this will make them
less violent. Radley Balko, The Watch How do we fix
the police ‘testilying’problem ?, The Washington Post,
April 16, 2014). Nevertheless, people keep dying;
Alanna Durkin Richer and Linsay Whitehurst, 1
verdict, then 6police killings across America in 24
hours, Associated Press, April 24, 2021; because the
regulations implementing de-escalation have no
teeth; Laura Thompson, Police Reforms Don’t Work
When Cops Ignore Them, Mother Jones, April 21,
2021; and camera footage is often faked. Kevin
5

Roose, Here Come the Fake Videos Too, The New
York Times, March 3, 2018.
This case presents issues of whether police
brutality should be constitutionally protected (hint it
should not); whether regulations ordering police to
de-escalate confrontations instill an affirmative duty
to de-escalate confrontations (hint it does); whether
police can be trusted not to fake evidence (hint they
cannot); whether police are experts (hint they are
not); whether courts should continue to place their
thumb on the scale in favor of the police over pro se
litigations (hint they should not); and whether courts
should be required to abide by rulings of this Court
(hint they should).

I. The Night in Question

6

On the night in question while in the
Chinatown area of Washington DC, I (David R.
Seaton, Petitioner) flipped the bird to a police car (of
the Metropolitan Police Department of the District of
Columbia) before attempting to enter a bar. This act
was neither an act nor a threat of violence; rather it
was a constitutionally protected act of free speech to
express my displeasure at the fact that police officers
were murdering American citizens in the streets.
As I attempted to enter the bar, the little
Eichmanns acting as bouncers told me that I could
not enter. When I asked why, they informed me that
it was violent to flip the bird to a police car, and the
mini Mussolinis informed me that if we disagreed we
could talk with the police. I, in hind sight quite
naively, agreed; believing that the police - who had
no respect for the lives of the their countrymen would respect my first amendment right to
7

symbolically invite the police to perform an act of
consortium with themselves. . . and I was wrong.
What can I say? I still naively believed that the
Constitution absent some authority to defend it was
worth the paper it was written on.
A gaggle of cops (approximately five or six of
them) arrived. The police told me if I attempted to
enter the bar than I would be arrested. This was not
based on a good faith believe that I was too
intoxicated to enter the bar, because - spoiler alert in the charging documents the police admitted that
they had suggested I simply go to another bar.
Rightly or wrongly, I believed that it was a violation
of my rights to prevent me from patronizing a
common carrier and/or public house simply because I
insulted government agents. I told them I would
leave if they gave me their badge numbers.

8

Two out of the five or so police present gave
me their badge numbers verbally (Respondents Vullo
and D’Angelo); shouting them out in quick succession
as to prevent me from remembering them. The rest
refused. I asked the two that shouted their badge
numbers to write their badge numbers down. They
refused. Now you might ask “Why require them to
write the badge numbers down?” Well, I don’t know
about you, but I can’t easily remember random
strings of letters and numbers under the best of
circumstances; let alone when they are shouted at
me in quick succession during a period of high stress.
As far as I can tell, this problem is not unique to me.
“One of the best established findings in the
psychology of memory is that nonsense words and
materials [such as say the random string of numbers
and letters in a badge number] are more difficult to
learn and to remember than meaningful materials.”
9

Richard Herbert, Code Overload-’ Doing a Number on
Memory, Association for Psychological Science,
September 26, 2001. Indeed, I was only able to
identify the officers named in this suit by - spoiler
alert - the charging documents after the fact.
Another question that arises is “Why didn’t I
simply write down their badge numbers?” Well first
to the best of my recollection, I did not have pen and
paper on me. Even if I did however, the simple fact
of the matter is that — if I had reached into my
pocket to grab the pen and paper that I didn’t have —
the five or so armed police could have used that as an
excuse to shoot me dead on the spot; claiming that I
had been reaching for a weapon. Cops use this
excuse to murder people every day. Joseph
Goldstein, Is Police Shooting a Crime? It Depends on
the Officer’s Point of View, The New York Times,
July 28, 2016.
10

Moreover, the police clearly had a reasonable
expectation that I would not be able to remember
their badge numbers. First, they were more then
willing to give their badge numbers verbally but not
in writing. Why? Second in an unrelated incident
that occurred after the events in question, someone
stole my wife’s and my cat. When my wife reported
the crime, the two officers who responded to the case
both gave my wife their cards with their badge
numbera on them. The only possible reason that the
police would have refused to this in my case is that
they knew what they were doing was wrong, and
they did not want to be identified by their badge
numbers and held accountable for their actions.
Regardless of their reasoning, we found
ourselves in a standoff. Rather than be a bootlicking
supplicant to jackbooted thugs, I refused to leave
until the two officers wrote down their badge
11

numbers. This tactic representing a compromise
that I would temporarily obey their directives so long
as I retained the ability to sue them in Court. The
two jackbooted thugs in question preferring instead
to live in a world where citizens are reduced to
bootlicking supplicants to be ordered about without
consequence refused to write their badge numbers
down.
Again, one is pressed to come up with a reason
why two out of the five or so officers present would be
willing to shout their badge numbers out in quick
succession, but zero out of the five or so officers
present would be willing to write down their badge
number to de*escalate the situation.
More importantly, their own regulations
required the police to de*escalate a situation
whenever possible. Metropolitan Police Department
of the District of Columbia General Order 901.07
12

Part IV.A. So, I was willing to walk away; if the
police wrote down their badge numbers. The police
clearly had the ability to write down their badge
numbers, and the only motive for refusing to write
down their badge numbers was to avoid being held
accountable for actions that they knew were wrong;
namely restricting the liberty of a citizen who had
flipped them the bird. This represented a biased and
self*serving violation of their own regulations, and,
but for, the police’s failure to follow their own
regulations the following events would not have
ensued.
My attention directed at the first two cops, a
third cop (Respondent Johnson), decided to escalate
the situation by abruptly walking towards me at an
oblique angle from my line of sight. I turned towards
the third cop, and, to the best of my recollection, I
stood my ground; and the next thing I knew I was
13

headbutted by the third cop, thrown to the ground,
dogpiled by the rest of the officers, and had my face
ground into the pavement. I was arrested,
eventually hospitalized, and charged criminally. The
charges were dropped pursuant to a deferred
prosecution agreement. I was advised by my counsel
at the time that in entering the deferred I was only
waiving my right to a speedy trial.
II. Ensuing Litigation
Thereafter, I sued the Respondents in the
Superior Court of the District of Columbia for a
variety of intentional torts as well as negligence.
The United States Congress established the Superior
Court as a Federal Court of original jurisdiction.
District of Columbia Court Reform and Criminal
Procures Act of 1970, 84 Stat. 473 (1970). The
Superior Court is a court of first instance of civil
actions alleging controversies in the District of
14

Columbia. D.C. Code § 11*921. All the events took
place in the District of Columbia. The parties were
all either the government of the District of Columbia,
agents of the government of the District of Columbia,
or present in the District of Columbia during the
events in question.
The Respondents unable to meet the deadline
to file for summary judgement filed a motion for an
extension of time to file a motion for summary
judgement; which I never received. I would note that
more or less contemporaneously, the Respondents’
initial discovery disclosures were sent to the wrong
address. It is possible that Respondents attempted
to serve me a copy of their motion for additional
time. Nevertheless, I never received it. The
Superior Court apparently unconcerned with such a
breach of due process granted Respondents’ motion
for additional time to file for summary judgement.
15

In support of their claim for summary
judgement, Respondents submitted body camera
footage which, contrary to my recollection of events,
purported that my forehead touched the third
officer’s forehead first. The footage had obviously
been edited at least to some degree as it included
title cards; as opposed to simply the raw footage.
More interestingly, the footage contradicted the
sworn statements of the police in the charging
documents. Namely, the police officers alleged that
on of the police officers had been headbutt by me; as
opposed to my recollection of events in which a police
officer headbutt me. Nothing in the footage
submitted in the police confirms either my
recollection or the police’s recollectionof events.
Thereafter, the Superior Court granted
Respondents; summary judgement. Seaton v.
Johnson et al, No. CAB6737-17 (D.C. January 9,
16

2019). In particular, the Superior Court relied on
body camera footage that contradicted not only my
testimony, but the testimony of the police officers.
I argued that body camera footage was in
essence just another witness that a factfinder could
accept or reject at trial, and, as a result, the body
camera footage could not be the basis for summary
judgement; as the Superior Court was required to
interpret the facts in the light most favorable to me
during the summary judgement proceedings. In
other words a factfinder could potentially afford the
body camera footage more weight than my testimony
at trial, but, at summary judgement, the Superior
Court was required to afford my recollection of
events greater weight due to the fact that it was
more favorable to me. The Superior Court rejected
this argument.

17

Additionally, I argued that the police were at
fault for failing to write down their badge numbers,
because' they had a duty to de-escalate the situation;
writing down their badge numbers would have deescalated the situation; the only possible motivation
for refusing was to avoid punishment; and but for
their refusal I would not have suffered any injury.
The Superior Court rejected this argument as well.
Finally, Respondents argued, and the Superior
Court accepted, that police violence cannot be
critiqued by the average citizen, but rather it is a
matter of professional expertise that can only be
analyzed by experts. I objected to this argument on
the grounds that being a jackbooted fascist thug
requires no level of expertise, and that, even if it did,
it does not take an expert to realize that it is
excessive force for five or more armed men to dog pile
on a single unarmed man and grind his face into the
18

pavement for an alleged misdemeanor. The Superior
Court rejected this argument.
I appealed to the District of Columbia Court of
Appeals; essentially restating my arguments made
before the Superior Court. The Court of Appeals is
the court of last resort to appeal decisions of the
Superior Court; D.C. Code § 11*721; and it is the
equivalent of a state supreme court. 28 U.S.C. §
1257. The Respondents once again unable to meet
their deadlines filed a motion for an extension of
time to file a brief in opposition; essentially arguing
that my appeal was not worth their time and that
they should not be responsible for having to file a
timely opposition brief. I actually received this
motion, and I filed a response opposing it; noting that
to the extent to which the government was overrun
with appeals should be a hint that they were in the
business of injustice and that they should not be
19

rewarded for their behavior. The Court of Appeals
granted the extension and affirmed the Superior
Court for essentially the same reasons offered by the
Superior Court. Seaton v. Johnson etal, No. 19-CV85 (App. D.C. March 3, 2021).
Of note, the Court of Appeals explicitly
rejected a claim for an intentional tort, because the
amount of damage that I had sustained was
negligible. This is critical because it contradicts the
standard outlined by this Court in an eight to one
majority in Uzuegbunam et al v. Preczewski et al
that even nominal damages as low as one dollar are
sufficient to keep a law suit alive. No. 19*968 (U.S.
March 8, 2021). Accordingly, I petition this
honorable Court for certiorari.
REASONS FOR GRANTING THE WRIT
Both the Superior Court and the Court of
Appeals committed reversable error by shielding
20

violent cops from having to face a jury trial. More
importantly, this case raises multiple questions of
such widespread public concern that this Court
should rule on this case.
I. Police departments have been infiltrated by
faacists, and they need to be stripped of power as
expeditiously as possible.
Police departments have been infiltrated by
jackbooted fascist thugs. “White supremacist groups
have infiltrated U.S. law enforcement agencies in
every region of the country over the last two
decades.” Sam Levin, White supremacists and
militias have infiltrated police across US, The
Guardian, August 27, 2020. “The FBI has long been
concerned about infiltration of law enforcement. . .
and its impact on police abuse!.]” Alice Speri,
Unredacted FBI Document Sheds New Light on
White Supremacist Infiltration ofLaw Enforcement,
The Intercept, September 29, 2020. “[Clurrent and
21

former Border Patrol agents joked about the deaths
of migrants, discussed throwing burritos at Latino
members of Congress .. . and posted a vulgar
illustration depicting Rep. Alexandria Ocasio-Cortez
engaged in oral sex[.]” A.C. Thompson, Inside the
Secret Border Patrol Facebook Group Where Agents
Joke About Migrant Deaths and Post Sexist Memes,
Pro Publica, July 1, 2019.
These facist cops actually enjoy killing
Americans. “In ... a police training session, [Trainer
Dave] Grossman can [be] heard saying, ‘Killing is
just not that big a deal.’. . . [Clops can experience
‘the best sex’ and ‘very intense sex’ after killing
another human.” Sayantani Nath, Who is Dave
Grossman? Enforcement trainer tells cops sex after
killing a human is best sex, 'Media, Entertainment,
Arts, World Wide, April 22, 2021. “It’s one thing to
use . . . violence to affect an arrest. It’s another thing
22

to find it funny . . . [i]t’s just pervasive throughout
policing.. . . you see the underbelly of it. And it’s ...
gross.” Zack Beauchamp, What Police Really
Believe, Vox, July 7, 2020. “This is the mentality
when they go on the street. . . . This is all intentional
and they believe this is righteous.” Simone
Weichselbaum and Jamiles Lartey, What Are Cops
Really Thinking When Routine Arrests Turn
Violent?, The Marshall Project, June 26, 2020. “We
also have to deal with the ‘above the law’ mentality
of officers, . . . and the blue wall of silence that
extends from police departments to prosecutor’s
offices and courtrooms.” Rashawn Ray, Bad apples
come Irom rotten trees in policing, The Brookings
Institution, May 30, 2020.
Police departments either out of sympathy for
police brutality or through shear bureaucratic inertia
simply refuse to take steps to curb police violence.
23

“[L]aw enforcement agencies not only fail to
adequately investigate misconduct allegations, they
rarely sustain citizen complaints. Disciplinary
sanctions are few and reserved for the most
egregious cases.” Jill McCorkle, Police Officers
Accused ofBrutal Violence Often Have a History of
Complaints by Citizens, Next City, June 2, 2020.
“[T]he use offeree becomes legitimized because
everyone does it and nobody says anything about it.”
Arlin Cunic, The Psychology Behind Police Brutality,
Very Well Mind, January 17, 2020. “The function of
police, then, is to control poor populations of color
with either the threat or use of violence with
impunity. No amount of training will yield different
results as long as that’s what policing was built to
do.” Char Adams, Experts stress that more training
won't eradicatepohee violence, NBC News, April 15,
2021.
24

Given these publicly available facts, it is
axiomatic that any and all avenues to geld police
officers of their powers should be immediately
exploited to their full potential. Taking this case will
provide this Court an opportunity to chastise police
forces for devolving into roving gangs of fascists that
brutalize the American people, strip them of their
power, and establish a regime of accountability and
deterrence that police departments either out of
sympathy for police brutality or through shear
bureaucratic inertia simply refuse to enact. In other
words, this is an important question (some might say
crisis) that this Court should resolve. Supreme
Court Rule 10.
If this Court does grant cert., then what
should this Court do? This Court should overturn
Graham v. Connor, 490 U.S. 396 (1989). In Graham,
this Court ruled that the use of force must be based
25

on an officer-centric standard of reasonableness; the
factors taken into consideration when considering
the reasonableness included: severity of the crime
alleged; officer safety; and resistance from or flight
from police violence. The first two factors are
designed to legitimize police violence, and the third is
circular. What agencies alleges the severity of the
crime and determines what is and is not dangerous?
The very fascist police departments brutalizing the
public. What happens when the public stand up to
police brutality? The fascist police departments have
a government license for more police brutality.
Clearly, this Court should not continue to allow
police departments overrun with fascists to continue
to enjoy this power.
In Planned Parenthood v. Casey,; this Court
outlined the standards for reversing previous
decisions of this Court. 505 U.S. 833 (1992). These
26

factors include- practical workability! reliance! and a
change of facts.
Graham is neither practical nor workable,
because police think and act like occupying armies!
and, thus considers We the People their enemy
rather than their patrons. “The founders of modern
policing quelled foreign uprisings. ‘Demilitarizing’
police will be harder than taking away their tanks.”
Stuart Schader, Yes, American police act like
occupying armies. They literally studied their tactics,
The Guardian, June 8, 2020.
The only people relying on Graham are the
police. Police represent .35% of the population. “The
rate of full-time law enforcement employees . . . per
1,000 inhabitants was 3.5.” Police Employee Data,
Federal Bureau of Investigation (2019). This is held
in sharp relief when compared to Casey. Casey
upheld Roe v. Wade, 410 U.S. 113 (1973), because
27

American women, roughly half the population, relied
on the ruling. Fifty percent is substantially larger
than .35%. This is held in even sharper relief once
one realized that 99.65% of the population (100% ■
.35% = 99.65%) are not police and would benefit from
overturning the Graham.
Finally, the “facts” that Graham relied on to
the extent that they were ever true certainly are not
true anymore. As discussed supra in more detail,
police departments have been infiltrated by fascists
who are psychologically compelled to brutalize the
American population, and police departments refuse
to restrain them. Therefore, the underlying factual
assumption of Graham - namely that cops are
willing or even capable to determine what level of
force is and is not reasonable based on their training
and experience - is demonstrably untrue.

28

Instead this Court should take this case in
order to adopt a more citizen-centric standard
constitutionally stripping cops of their ability to use
force and requiring cops to exhaust every avenue of
de-escalation (and even impose a duty to retreat)
before using force.
II. De-escalation regulations are the only legal tool
in the armory of the average citizen standing up
against the police oppression, and they must be given
more teeth.
In light of manifest corruption and oppression
of American police departments, the American people
have begun calls for abolishing or at least defunding
the police. The “call. . . has grown across the
country as protests against police brutality
continue.” Benn Kesslen, Calls to reform, defund,
dismantle and abolish the police, explained, NBC
News, June 8, 2020. “The desired place of coercion
and force in our lives must be addressed, and I, for

29

one, wish to have as little of these present as
possible.” Sean Tiling, The “abolish the police”
movement, explained by 7 scholars and activists,
Vox, June 12, 2020. “[Yloung people are hopeless in
America . . . Here’s a solution . . . abolish the police."
Maya Dukmasova, Abolish the police? Organizers
say it’s less crazy than it sounds, Chicago Reader,
August 25, 2016.
Unfortunately, there is bipartisan consensus
across administrations that police brutality should
continue unabated. “President Joe Biden said at a
CNN town hall on Tuesday that he remains opposed
to calls for ‘defunding the police!.]’” Scottie Andrew,
Josiah Ryan, and Caroline Kelly, CNN, April 14,
2021. “President Trump on Monday assailed a broad
movement to defund police departments!.]” Katie
Rogers, Trump Continues Criticism ofMovement to
Defund the Police, New York Times, July 13, 2020.
30

“Republican senators . . . oppose calls to ‘defund the
police!.]”’ Jordain Carney, GOP senators introduce
resolution opposing calls to defund the police, June 9,
2020. “[Dlespite the . . . insistence that dismantling
the policing system in the US ... is the solution . . .
Democratic leaders . . . [have begun] an active effort
to distance themselves from it.” Steve Chaggaris,
Defunding police- An idea most Democrats don’t
want to talk about, Aljazeera, April 15, 2021.
The one concession to popular unrest that
policy makers appear to be willing to implement is to
require police officers to attempt to de*escalate a
situation rather than use violence. “’We need . . .
police departments] ... to undertake a
comprehensive review of their . . . de-escalation
practices,’ [President] Biden said . . . ‘And the federal
government should give the . . . resources they need
to implement reforms.’” Laura Barron, Biden White
31

House puts its police oversight commission on ice,
Politico, April 11, 2021. “De-escalation training ...
was embraced by Senate Republicans!.]” Erin
Schumaker, Police reformers push for de-escalation
training, but the jury is out on its effectiveness, ABC
News, July 5, 2020. “[D]e-escalation is gaining new
prominence amongst law enforcement!.]” Tom
Jackman and Dan Morse, Police de-escalation
training gaining renewed clout as law enforcement
seeks to reduce killings, Washington Post, October
27, 2020.

This is an appalling breach of our political
leaders’ duty in light of the fact that experts have
already scientifically determined that de-escalation
training alone will never work. “[W]hat is
increasingly clear [from systematic research] ... is
that. . . de-escalation training is ... an insufficient
solution.” Stacey McKenna, Police Violence Calls for
32

Measures beyond De-escalation Training; Scientific
American, June 17, 2020. “Experts who study deescalation, as well as law enforcement officials . ..
say ... there's no conclusive evidence that deescalation training works.” Erin Schumaker, Police
reformers push for de-escalation training, but the
jury is out on its effectiveness, ABC News, July 5,
2020.

Indeed, the attitude of police officers and
policy makers appears to be that de-escalation
regulations can be promulgated and then
immediately ignored. “The clamoring for deescalation is loud, and ... it is clear that police . . .
must help . . . policymakers understand the . . .
mythology of de-escalation.” Police Chief Joel F.
Shults, Putting the Brakes on De-escalation
Expectations, National Police Association, August 26,
2020. The media often . . . givets] an opinion about
33

what the officer could have said or done to avoid
using force [i] . . . meandering, blathering mumbo
jumbo[.]” Police Lieutenant Jim Glennon, Dem
escalation• Completely Misunderstood, Employed &
Trained, Calibre Press, August 3, 2020. “[T]hese
concepts ... in some situations, they are useless and
even dangerous!.] . . . [P]olicy should not mandate
that it [(de*escation)] be the first tool” used. Police
Lieutenant Brian Landers, Are DeEscalation
Policies Dangerous?, Police Magazine, October 14,
2017. “It’s the latest instance of police appearing to
ignore the hard*won reforms!.] . . . [Olfficers in at
least half a dozen cities have allegedly violated those
policies throwing] into question how effective
reforms are at controlling violent police behavior.”
Laura Thompson, Police Reforms Don't Work When
Cops Ignore Them, Mother Jones, April 21, 2021.

34

Turning back to my case, the District of
Columbia has promulgated regulations requiring
police officers to de-escalate confrontations. The
police when given the opportunity decided not to deescalate the situation, and the District of Columbia
rather than hold these police officers accountable has
defended the police’s right to ignore de-escalation
regulations all the way to this Court. The District of
Columbia’s contempt for reigning in police violence is
palpable, and, more sadly, it is representative of the
attitudes of municipalities nationwide. These deescalation regulations are essentially a matter of
first impression that this Court should rule on.
Supreme Court Rule 10. Specifically, this Court
should rule that de-escalation regulations instill and
affirmative duty on the police to de-escalate
confrontations by any reasonable means; and

35

reasonable means includes writing down their badge
numbers.
III. The combination of the history of fraud
perpetrated by police departments combined with
deep fake technology necessitates establishing rules
of procedure and evidence that do not privilege police
footage over citizen testimony.
It is a matter of public record that police
officers routinely forge evidence and commit perjury.
u[M]ultiple officers workled] together to manufacture
evidence [.]” Eric Levenson, Lauren del Valle and
Darran Simon, Public Defender ' Baltimore Police
Caught Planting Evidence, Again, CNN, August 4,
2017. “Police lying persists!.]” Joseph Goldstein
‘Testilying’ by Police'- A Stubborn Problem, The New
York Times, March 18, 2018. “It’s crazy and it’s
scary how these guys got the power to change your
life like that!.] .. . The badge and that uniform gives
them the power to do that.” Steve Reilly and Mark
Nichols, Hundreds ofpolice officers have been
36

labeled liars. Some still help send people to prison.,
USA Today, October 14, 2019.
Even more disturbingly, lower courts
throughout this country let cops get away with it.
“Judges simply do not like to call other government
officials liars - especially those who appear regularly
in court.” Christopher Slobogin, Testilying- Police
Perjury and What To Do About It, 67 U. Colo. L. Rev.
1037 (Fall 1996). “[I]naccurate statements are
encouraged by ... a court system that rarely holds
officers accountable[.]” Ryan J. Foley, Video evidence
increasingly disproves police narratives, Associated
Press, June 9, 2020.
Camera footage was supposed to blunt police
misconduct. “Equip officers with body cameras. If
police knew their every action was being recorded . . .
they would more likely be on their best behavior.”
Louise Matsakis, Body Cameras Haven’t Stopped
37

Police Brutality, Here’s Why, Wired, June 17, 2020.
Unfortunately, “deep fake” technologies permit
and will continue to permit cops to forge evidence.
“Fake videos can now be created.” Oscar Schwartz,
You thought fake news was bad? Deep fakes are
where the truth goes to die, The Guardian,
November 12, 2018. “It’s not hard to imagine this
technology’s being used to . . . frame people for
crimes!.]” Kevin Roose, Here Come the Fake Videos
Too, The New York Times, March 3, 2018. Even
members of Congress have recognized the need “[t]o
combat the spread of disinformation through
restrictions on deep*fake video alteration
technology!!.]” DEEP FAKES Accountability Act,
H.R. 2395, 117th Congress (2021).
This is no mere paranoia, as cops, have
already been caught generating false camera footage.
In Baltimore, MD for example, a cop, Richard
38

Pinheiro was caught on his body camera planting
evidence. Bill Chappell, Baltimore Police Caught
Planting Drugs In Body-Cam Footage Public
Defender, NPR, July 30, 2017.
“Wait!” you say, “Doesn’t this just prove that
police body camera footage is reliable.” No. The only
reason that the cop was caught was because he was
new to the technology. The officer “activate [d] his
bodycam — apparently unaware . . . [of] a feature
that saves the 30 seconds of video before
activation!.]” Id. What this incident does
demonstrate is an example of cops attempting to
manipulate body camera footage in order to forge
evidence; which, but for what in essence amounts to
a rookie mistake, would have in all likelihood
succeeded.
“But Wait!” you exclaim, “The offending officer
was caught and convicted. Pinheiro v. State, 244
39

Md. App. 703 (2020). Doesn’t this indicate that the
system is holding cops accountable? No. The police
chief (you know one of the top guys running the
system) defended the offending officer’s actions as a
legitimate practice of “re-enacting a legitimate
discovery of drugs!.]” Scott Calvert, Baltimore Police
ChiefDefends Officers in Body-Cam Videos, The
Wallstreet Journal, August 2, 2017. The presiding
judge (you know the theoretically independent
judiciary that will prevent such deep-seated
corruption) despite finding that “without a doubt the
offending officer created the video to deceive” and
that this was “a willful abuse of his authority for . . .
personal gain!,]” stated in open court that the officer
did not deserve jail time. Kevin Rector, Baltimore
Police officer found guilty offabricating evidence in
case where his own body camera captured the act,
Baltimore Sun, November 9, 2018. The officer in
40

question hardly chastened by this turn of events
justified his behavior as being “proactive.” Id. At the
beginning of this year moreover, the guilty verdict
was struck from the record; thus, the offending
officer in question is “innocent” of all charges of
misconduct. State v. Pinheiro, Case No. 118023003
(Md. Cir. Ct, February 12, 2021).
The Pinheriro Case represents a starting
example of how cops can and will attempt to subvert
the very technology designed to prevent misconduct
in order to facilitate misconduct. This case study,
moreover, cannot be dismissed as an isolated
incident limited in either geography or substance.
Consider the analysis of a retired police detective
from the Metropolitan Police Department of the
District of Columbia discussing camera footage in
police confessions. “[Videotaping . . . mayprevent
the occasional rogue investigator from using
41

improper or illegal tactics . . . but many confirmed
false confessions have occurred when the
investigator used only standard, court-approved
techniques.” Detective James L. Trainum, ‘I Did If
- Confession Contamination and Evaluation, Police
Chief Magazine, June 2014. Describing the
effectiveness of body cameras a Washington DC
Council member stated, “Instead of engendering the
type of transparency and trust that we would want
this program to have, it has had the complete
opposite effect,” Linsay Van Ness, Body Cameras
May Not Be the Easy Answer Everyone Was Looking
For, Pew Research, January 14, 2020. More broadly,
“[l]aw enforcement has ... [a] desire to extricate
data from the digital world, but there hasn’t been
adequate scrutiny on these new technologies.”
Kashmir Hill, Imagine Being on Trial With

42

Exonerating Evidence Trapped in Your Phone, The
New York Times, November 22, 2019.
As such, the Court should take this case, and
rule that the credibility of electronic evidence
submitted by police (as opposed to eye witness
testimony by citizens) is a matter for a jury to
adjudicate rather than judge to rule on at summary
judgement. Supreme Court Rule 10.
IV. Police violence is not a matter of special
expertise; rather it is We the People who are
empowered to adjudicate it.
Police are neither experts nor professionals,
and they do not possess special knowledge or
expertise on what force is appropriate in what
situations. “By the early 1980s, the ‘professional
model’. . . was thoroughly discredited. It. . . ma[de]
police departments insular, arrogant, resistant to
outside criticism and feckless in responding to social
ferment.” David Alan Skansky, The Persistent Pull
43

ofPolice Professionalism, New Perspectives in
Policing, Harvard Kennedy School (March 2011). “I
have a hard time calling policing a profession.”
Policeman Dean Isabella, Is Policing a Profession,
Law Enforcement Today, August 24, 2017. If
anything, police are less qualified than the civilians
to deal with situations that require special expertise)
such as when dealing with the mentally ill. “[P]olice
officers . . . increase the risk of a violent encounter[.]”
Zusha Elinson, When Mental-Health Experts, Not
Police, Are the First Responders, The Wallstreet
Journal, November 24, 2018.
The myth of police professionalism and
expertise was specifically established as a public
relations move to valorize police brutality. Even in
the early days of professionalization internal
literature “suggested that rank-and*file police rarely
possessed the [necessary] competence” to comply
44

with department standards or demonstrate their
supposed expertise. Josh Segal, All of the Mysticism
ofPolice Expertise• Legalizing Stop-and-Frisk in
New York, 1961-1968\ 47 Harv. C.R.-C.L. L. Rev. 573
(Summer 2012). Consequently, police departments
were forced to admit publicly that their professional
standards were “simply suggestions to law
enforcement officers.” Brief for Respondent, People
v. Peters, 219 N.E.2d 595 (N.Y. 1966). Even at the
time, outside commentators observed police expertise
was “mysticism” designed to get people “to accept the
attitudes of police.” Brief for NAACP Legal Def. and
Educ. Fund, Inc. as Amicus Curiae Supporting
Appellant Terry v. Ohio, 392 U.S. 1 (1968).
Moreover, government legitimacy “derivfesl. . .
from the consent of the governed!^]” Declaration of
Independence (US - 1976); and the appropriateness
of state violence is ultimately an issue for We the
45

People (seeU.S. Const. Preamble declaring"We the
People ... in Order to . . . establish justice, ensure
domestic tranquility, [and] provide for the common
defense”). It is unlawful under our form of
government for the use of state violence to be
adjudicated by supposed experts “protecting them
[(armed agents of the state in this case police)], by a
mock [t]rial from punishment for any [crimes] which
they should commit” against We the People.
Declaration of Independence (US - 1976).
“Something worth remembering by law enforcement
responding to the thousands of American protesters
todayU” Robin Washington, Revolutionary Moments
in Law Enforcement, The Marshall Project, July 3,
2018.
In more practical terms, labeling police as
experts/professionals or the use of state violence as a
matter of special expertise has the effect of driving
46

up the cost of litigation and confounding jury
verdicts. “[T]he cost of litigation continues to rise,
especially the costs associated with retained
experts[.]” Jimmerson Birr, Combating the Ever
Increasing Costs ofExperts in Litigation, June 18,
2012. “Expert evidence can be both powerful and
quite misleading because of the difficulty in
evaluating it.” Daubert v. Merrell Dow Pharm., 509
U.S. 579 (1993). As such, this Court grant cert, and
rule that police are not experts, and that the
appropriateness of state violence is a matter for We
the People to adjudicate rather than experts
designed to insulate the police. Supreme Court Rule
10.

47

V. Courts are cognitively biased against pro se
litigants, and this violation of due process and equal
protection under law has created an unjust windfall
for municipalities who actively shield violent cops.
Courts are biased against pro se litigants.
“The basic thing is that most judges regard these
people [{pro se litigants)] as kind of trash not worth
the time of a federal judge.” Debra Caassens Weis,
Posner-Most Judges regard pro se litigants as ‘kind
of trash not worth the time,' American Bar
Association Journal (September 11, 2017) {citing
Judge Richard Posner). “[Mlany trial judges think of
the self-represented as ‘weirdos’ or worse!.]” Stephen
Landsmand, The Growing Challenge ofPro Se
Litigation, 13 Lewis & Clark L. Rev. ii (2009). The
very psychology of judges makes them find the legal
arguments offered by pro se litigants to be “less
meritorious . . . than counseled litigants, even when
all case facts were held constant!.]” Katheryn M.

48

Kroeper, Victor D. Quintanilla, Michael Frisby,
Nedim Yel, Amy G. Applegate, Steven J. Sherman,
Mary C. Murphy, Underestimating the
Unrepresented•' Cognitive Biases Disadvantage Pro
Se Litigants in Family Law Cases, American
Psychological Association- Psychology, Public Policy,
and Law, Vol. 26 No. 2 (2000).
This is catastrophic in light of the fact that
growing income inequality has caused a deluge in pro
se litigants with meritorious cases. “As the economy
has worsened, the ranks of the self-represented poor
have expandedL]” Chief Justice John T. Broderick
and Chief Justice Ronald M. George, A Nation ofDoIt-YourselfLawyers, The New York Times, January
1, 2010. “[Plursuing a claim in federal court with the
aid of counsel is financially out of reach for many
people, including those who are not poor” Spencer G.
Park, Providing Equal Access to Equal Justice- A
49

Statistical Study ofNon ■Prisoner Pro Se Litigation in
the United States District Court for the Northern
District of California in San Francisco, 48 Hastings
L.J. 821 (1997). “The number of these ‘pro se
litigants’ has risen substantially in the last decade,
due in part to the economic downturn!.]” Lauren
Sudeall and Darcy Meals, Every year, milhons try to
navigate US courts without a lawyer, The
Conversation, September 21, 2017.
This has resulted in a windfall in for
municipalities who attempt to, and often
successfully, co*op judges into shielding brutal cops.
“[T]he law gives too much deference to police conduct
and does not do nearly enough to hold the police
accountable ... in civil court.” Erwin Chemerinsky,
The Deck Is Stacked in Fa vor of the Police, The New
York Times, May 18, 2016. “The cozy relationship
between judges and police is . . . the worst kind of
50

bias - a bias in favor of police as a group [.] . . . It’s a
violation of the judicial duty!.]” Susan Bandes, Why
judges so rarely second-guess police testimony;
Salon, December 16, 2015.
Even some judges have admitted that action
must be taken to counter this bias. “As judges, we
believe more needs to be done to meet this growing
challenge!.]” Chief Justice John T. Broderick and
Chief Justice Ronald M. George, A Nation ofDo-ItYourselfLawyers, The New York Times, January 1,
2010 (excoriatingthe need for intervention in the
then growing and growing ever still crisis in pro se
litigation). That was over a decade ago, and yet little
or nothing has been done, and the pro se litigation
crisis remains ever growing still. Consequently, this
is an important question that has not been settled by
this Court, and this Court should grant cert in order
to evaluate this case. Supreme Court Rule 10.
51

That naturally raise the question that, if the
Court did grant cert then what should the Court do.
Of course, the most obvious remedy would be
enacting a general version of Gideon v. Wainwright,
372 U.S. 225 (1963) {recognizingthe constitutional
right of indigent criminal defendants to government
provided counsel). Namely, granting a universal
right to government provided counsel in all cases
regardless of wealth; or, at least, if not in all cases, in
cases, where a government entity is a party to the
case. In my particular case, this would require
vacating any judgement against me and
reajudicating the case with government appointed
counsel. Regarding the public at large, it would
revolutionize the rights of the indigent and the
proletariat to hold the powerful accountable; making
this iteration of the Court the most liberatory in the

52

history of the United States. Not sure why anyone
would say no to that.
Alternatively, this Court could expand Yick
Wo v. Hopkins, 118 U.S. 356 (1886). In Yick Wo, the
Court held that facially neutral laws enforced in a
systemically racially discriminatory matter are
unconstitutional. A systemic bias in favor of one
class of litigants (the police and the local
municipalities they work for) over another (pro se
litigants suing them) is no less a violation of the
equal protection clause of the 14th Amendment and
the due process clauses of the fifth and 14th
Amendment regardless of whether or not it is due to
racial discrimination.
In my case in particular, both the Superior
Court and the Court of Appeals granted extensions
over my objections because the police and
Washington DC indicated that they were too busy
53

litigating other cases; and didn’t feel they had the
time to meet their deadlines. Rather than chastising
the government, both courts ultimately granted
these requests. Imagine the likelihood of a court
humoring a pro se litigant offering the same
explanation. But for these extensions, the
government would not have been able to meet key
deadlines necessary for summary judgement, and I
would have gotten a trial. Regarding the public at
large, it forces municipalities to either commit more
resources to litigating cases (thus creating jobs), or it
would force municipalities to settle lawsuits that, for
whatever reason, were not a high enough priority to
commit the resources to meet deadlines during
litigation. This would ultimately force municipalities
to be more accountable to their constituents; rather
than continue their current practices of aggrieving so

54

many people as to generate so many lawsuits that
they cannot defend them all.
VI. The Court should exercise its supervisory powers
in order to enforce Uzuegbunam.
As discussed supra, one of the reasons that the
Court of Appeals dismissed my case is that allegedly
the evidence of record did not demonstrate a severe
enough level of damages. As previously noted, this
Court in an eight to one majority found that even
nominal damages as low as one dollar are sufficient
to keep a law suit alive. Uzuegbunam et al v.
Preczewski et al, No. 19*968 (U.S. March 8, 2021).
Given that the Court of Appeals published the
decision on appeal five days prior to this Court
publishing Uzeuegunan it would be inaccurate to
suggest that the Court of Appeals was deliberately
defying the authority of this Court. On the other
hand, what kind of message does it send to lower

55

courts if this Court allows a near contemporaneous
decision to stand that directly contradicts an eight to
one decision of this Court. Taking this case will give
this Court the opportunity to show that the Court is
serious about enforcing Uzuegbunam, and that this
Court expects lower courts to take note of it and
apply it immediately. It is therefore a matter of
great public concern. Supreme Court Rule 10.

56

